                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: AI0060042                                                                          Page 1 of1



                                                                                                                  2
                 We reviewed an allegation of plagiarism in an NSF proposal. 1 We contacted the Subject               ,
          who clarified that the copied material appeared in an earlier NSF proposal on which he was PI.


                    Accordingly, there is no substance to the allegation of plagiarism and this case is closed.




NSF OIG Form 2 (lIl02)
